        HAWAII JOB CORPS CENTER
(Operated by Management & Training Corporation)




        INDEPENDENT AUDITORS’ REPORT ON

      THE SCHEDULE OF JOB CORPS EXPENSES

     FOR PROGRAM YEAR ENDED JUNE 30, 2001




This audit report was prepared by R. Navarro & Associates,
Inc., under contract to the U.S. Department of Labor, Office
of Inspector General, and, by acceptance, it becomes a report
of the Office of Inspector General.


              _____________________________________
              Acting Deputy Inspector General for Audit
              U.S. Department of Labor




                                  Report No.: 03-02-003-03-370

                                  Date Issued: March 29, 2002




        R. NAVARRO & ASSOCIATES, INC.
            Certified Public Accountants
                                                TABLE OF CONTENTS



ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

INDEPENDENT AUDITORS’ REPORT ON
THE SCHEDULE OF JOB CORPS EXPENSES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

      Schedule of Job Corps Expenses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

      Notes to the Schedule of Job Corps Expenses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

      Supplemental Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


REPORT ON INTERNAL CONTROL STRUCTURE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


REPORT ON COMPLIANCE WITH
WITH LAWS, REGULATIONS, AND CONTRACTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

1.    Excess Insurance Reserve Balance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

2.    Weak Controls Over Construction and Rehabilitation Projects . . . . . . . . . . . . . . . . . . . . . 17

3.    Accountability Over Inventories . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

4.    Journal Entries Not Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

5.    Vacation and Sick Leave Balances Exceed Corporate Limits . . . . . . . . . . . . . . . . . . . . . 25

APPENDIX - AUDITEE’S RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
                        ACRONYMS



CFR    Code of Federal Regulations

CRA          Construction and Rehabilitation Awards

DOL          U.S. Department of Labor

ETA          U.S. Department of Labor, Employment and Training
             Administration

GAAP         Generally Accepted Accounting Principles

HJCC         Hawaii Job Corps Center

MTC          Management & Training Corporation

OAP          Outreach, Admissions, and Placement

OIG          Office of Inspector General

PRH          Policy and Requirements Handbook

PY           Program Year




                               i
                                  EXECUTIVE SUMMARY



Introduction

We were contracted by the U.S. Department of Labor (DOL), Office of Inspector General, to
perform an audit of the Hawaii Job Corps Center’s (HJCC) Schedule of Job Corps Expenses for
the program year ended June 30, 2001, in order to render an opinion on that schedule and to
report on internal control and compliance with laws and regulations in accordance with applicable
audit standards.

The HJCC is 1 of over 100 Job Corps centers located throughout the country. These centers are
funded and regulated by the DOL, Office of Job Corps, and are designed for purposes of
operating the Job Corps program, a residential, educational, and training program which serves
at-risk youth. The HJCC is operated by Management & Training Corporation (MTC), under
contract with the DOL.

Our audit objective was to obtain reasonable assurance that the Schedule of Job Corps Expenses
for program year ended June 30, 2001, was presented fairly in all material respects in accordance
with the accounting principles prescribed by the DOL, Office of Job Corps, which is a
comprehensive basis of accounting other than generally accepted accounting principles. In
accordance with this objective, we also obtained an understanding of management’s internal
controls and assessed control risk, and performed tests of the HJCC’s compliance with certain
laws, regulations, and contracts. These procedures were performed as part of obtaining
reasonable assurance on the Schedule of Job Corps Expenses, and our objective did not include
expressing an opinion on the internal control structure or on overall compliance with laws and
regulations.

Audit Results

While our opinion on the Schedule of Job Corps Expenses was unqualified, we noted the
following matters that were required to be reported in accordance with the applicable audit
standards.

Insurance Reserve Balances

We found that the reserves collected over the years to cover future uninsured losses far exceeded
the actual amount paid to claimants and they were not deposited into an interest bearing account
or set aside specifically to pay future claims. As of November 2000 the reserve balance was
approximately $6.48 million. Additionally, it is our understanding that MTC has not obtained
approval from the Office of Job Corps for their self-insurance program as required by the
regulations.



                                                ii
Weak Controls Over Construction and Rehabilitation Projects

The HJCC is not exercising sufficient internal controls over its construction and rehabilitation
(CRA) projects. Due to the restricted nature and purpose of CRA funding, it is essential that
centers exercise controls which ensure that these Federal resources are used for their intended
purposes and are properly tracked and documented. Specifically, we found the HJCC: (1) was
unable to identify the specific projects approved by the Office of Job Corps for over $300,000 of
$1.15 million of its CRA funding; (2) vouchered costs in excess of the approved amount for its
Maui dorm project; (3) reported about $32,000 of CRA costs in error as operations expenses; and
(4) processed 3 out of 10 CRA invoices for payment without written notations or other form of
evidence that the goods or services were received and did not have a purchase requisition for 1
invoice.

Inadequate Accountability Over Inventories

The HJCC did not exercise adequate accountability over its inventories of expendable supplies
which are Federal assets. Specifically, we found the inventory records did not include a report
which provided the detail and composition of the center’s ending inventory balances.
Additionally, there were large and unusual fluctuations in 9 of the 12 months evaluated (defined
as more than 20 percent variance from the preceding month). The HJCC was unable to explain
why there were such large fluctuations throughout the audit period.

Journal Entries Not Reviewed

The HJCC did not ensure that journal entries were consistently approved by someone other than
the preparer of the entry prior to being recorded in the general ledger. While the MTC policy
requires such an approval, the approval line was left empty on all of the journal entries selected
for testing. We discussed this finding with HJCC staff, and were told that while MTC policy
required approval of journal entries, the finance manager was relatively new to the center and had
not yet found the time to initiate this policy. If there are no review and approval procedures in
place, there is a much higher risk that erroneous transactions will be recorded and will not be
detected on a routine or timely basis.

Excessive Vacation and Sick Leave Balances

The HJCC was maintaining annual and sick leave balances in excess of allowable corporate limits.
According to MTC corporate policy, the maximum amount of unused annual leave which
employees can carry over to subsequent years ranges from 80 hours to 200 hours. The maximum
unused sick leave which may be carried over is 240 hours. We noted many instances where the
unused leave balances exceeded these limits. While the accrued balances noted during our audit
are not charged to the contract until paid to employees, the payment of these balances to
employees could result in unallowable charges to the Job Corps contract.




                                                iii
Recommendations

We recommend that:

•   MTC prepare and submit a written plan to the Office of Job Corps which details the self-
    insurance policies and practices used in charging insurance costs to their government
    contracts. The plan should entail all of the required components of 48 CFR 28.308. We also
    recommend that MTC ensure that future charges for uninsured losses be based on the present
    value of future payments in accordance with the regulations. In addition, we recommend that
    MTC set aside the funds in an interest bearing account, whereby the interest will offset the
    cost of further insurance charges. Finally, MTC should ensure that the existing reserve
    represent only the present value of future payments and refund any excess balance (the
    proportionate share) to the Federal Government.

•   HJCC implement improved controls over the CRA funding provided to ensure that there is:
    (1) adequate accountability over the CRA funds awarded; (2) adequate tracking and
    monitoring for timely completion; (3) advanced approval of redirected funds prior to
    expenditure of such funds for an alternative project; and (4) improved procedures for
    documenting receipt of goods or services prior to payment. In addition, we recommend that
    the HJCC adjust its ETA 2110 report to reflect accurate CRA and operations’ costs. As of
    June 30, 2001, the necessary adjustment was $31,980.

•   Complete perpetual inventory records are maintained which provide sufficient detail
    (description, quantity, and value) of the items held in inventory at the end of each reporting
    period. The balances reflected on the report should support the inventory balances reported
    on the Job Corps Contract Center Financial Report ETA 2110. We also recommend that
    HJCC take greater care in maintaining inventory records and in reporting these items on the
    ETA 2110 to ensure that the reports are accurate, complete, and up to date.

•   HJCC initiates procedures which require that journal entries be reviewed and approved by
    someone other than the preparer. This process should be documented by initialing and dating
    the appropriate line on the journal entry form.

•   MTC reviews the leave balances for HJCC staff and determine whether a portion of these
    balances should be forfeited by the respective employees. We also recommend that MTC
    ensures that the policies applicable to the HJCC are clarified and, if unique to the HJCC, put
    into writing and reissued to all HJCC staff.

Auditee’s Response

In its response to our draft report, the auditee generally concurred with all of the
recommendations described above, with the exception of those related to the insurance reserve
accounts. They believe that the current self-insurance practices are in accordance with the cost
accounting standards, and that the reserve balance is not excessive based on their estimate of
future insurance losses.


                                                iv
We have incorporated the auditee’s detailed comments at the end of each finding, as appropriate.
In addition, a copy of the auditee’s written response is included, in its entirety, as an appendix to
this report.

Auditor’s Conclusion

With the exception of the insurance reserve account, we agree with the corrective actions
described in the auditee’s response and consider all but one recommendation resolved.

As to the insurance reserves, we hold to our conclusion that the current reserve account balance
significantly exceeds the actual payments made in any given year since inception of the reserves,
and that the reserve funds should have been set aside for payment of insurance claims rather than
consumed in the contractors operations. This recommendation is unresolved and will be
addressed in ETA’s formal resolution process.




                                                  v
Mr. Elliot P. Lewis
Acting Deputy Inspector General for Audit
Office of Inspector General
U.S. Department of Labor
Francis Perkins Building, Room S-5022
200 Constitution Ave. NW
Washington, DC 20210


                        INDEPENDENT AUDITORS’ REPORT ON
                       THE SCHEDULE OF JOB CORPS EXPENSES


We have audited the accompanying Schedule of Job Corps Expenses of the Hawaii Job Corps
Center (HJCC), for the program year ended June 30, 2001. This schedule is the responsibility of
the Job Corps Center’s management. Our responsibility is to express an opinion on this schedule
based on our audit.

We conducted our audit in accordance with U.S. generally accepted auditing standards; and
Government Auditing Standards issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance that the
schedule of expenses is free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the schedule of expenses. An audit also
includes assessing the accounting principles used and significant estimates made by management,
as well as evaluating the overall presentation of the schedule of expenses. We believe that our
audit provides a reasonable basis for our opinion.

As described in Note 1, the Schedule of Job Corps Expenses was prepared in conformity with the
accounting practices prescribed by the DOL, Office of Job Corps, in the Job Corps Policy and
Requirements Handbook, Chapter 9, “Financial Management,” which is a comprehensive basis of
accounting other than generally accepted accounting principles. Allowable costs are established
by Federal regulations.

In our opinion, the Schedule of Job Corps Expenses presents fairly, in all material respects, the
expenses of the HJCC for the program year ended June 30, 2001, in conformity with the
accounting principles described in Note 1.

As described in Note 2, the Schedule of Job Corps Expenses includes indirect costs which have
been charged to the Job Corps contract in accordance with provisional indirect cost rates
negotiated with the DOL. The amount charged as indirect costs is subject to future adjustment
when final rates are issued by DOL.


                                                 1
Our audit was conducted for the purpose of forming an opinion on the Schedule of Job Corps
Expenses taken as a whole. The supplemental information presented on page 6 of this report is
presented for the purposes of additional analysis and is not a required part of the schedule of
expenses. Such information has not been subjected to the auditing procedures applied in the audit
of the schedule of expenses, and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued reports dated
October 25, 2001, on our consideration of HJCC’s internal control structure and on our tests of
its compliance with certain provisions of laws, regulations, and contracts. These reports are an
integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of the HJCC’s management, and DOL,
Office of Inspector General and Office of Job Corps, and is not intended to be and should not be
used by anyone other than these specified parties.




San Diego, California
October 25, 2001




                                                2
                  HAWAII JOB CORPS CENTER
                  Schedule of Job Corps Expenses

                 Program Year Ended June 30, 2001

Education personnel expense                                    $     788,299
Other education expense                                               59,757
Vocational training personnel expense                                642,746
Other vocational training expense                                    176,161
Social skills personnel expense                                    1,632,105
Other social skills expense                                           78,786
Food expense                                                         506,498
Clothing expense                                                     158,930
Support service personnel expense                                    513,241
Other support services expense                                       136,263
Medical & dental personnel expense                                   489,379
Other medical & dental expense                                       120,977
Administrative personnel expense                                   1,177,283
Other administrative expense                                         239,942
Indirect administrative expense (Note 2)                             503,327
Facilities maintenance personnel expense                             209,274
Other facilities maintenance expense                                 236,369
Security personnel expense                                           495,400
Other security expense                                                17,115
Communications expense                                                87,537
Utilities & fuel expense                                             276,645
Insurance expense                                                     51,295
Motor vehicle expense                                                 43,863
Travel & training expense                                            208,174
Construction & rehabilitation expense (Note 1g)                      729,506
Equipment & furniture expense (Note 1g)                               85,606
GSA vehicle rental expense                                            83,733
Vocational Skills Training expense (Note 1g)                          26,853
Student transportation & meal allowance                                1,386
Outreach, screening, & placement                                     511,556

Total expenses before Contractor’s fee                        $10,288,006
Contractor’s fee (Note 3)                                        $425,962
Total Expenses                                                $10,713,968

       See accompanying notes to the Schedule of Job Corps Expenses.




                                    3
                               HAWAII JOB CORPS CENTER

                  Notes to the Schedule of Job Corps Expenses (Continued)
                             Program Year Ended June 30, 2001



NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

a.   Nature of Operations

     The HJCC is 1 of over 100 Job Corps centers located throughout the country. These centers
     are funded and regulated by the DOL, Office of Job Corps and are designed for purposes of
     operating the Job Corps program, a residential, educational and training program which
     serves at-risk youth. Job Corps offers GED or high school equivalency programs and
     training in various vocational offerings, as well as a variety of supportive services. The
     primary offerings at the HJCC are: business clerical, culinary arts, retail sales, auto repair
     technician, building and apartment maintenance, desktop publishing, word processing and
     horticulture. The HJCC is located in Waimanalo, Hawaii, and is operated by Management &
     Training Corporation (MTC), under contract with the DOL.

b.   Basis of Accounting

     This Schedule of Job Corps Expenses has been prepared in accordance with the accounting
     practices prescribed by the Office of Job Corps, as set forth in the Policy and Requirements
     Handbook (PRH), Chapter 9, “Financial Management.” For the most part, the PRH
     prescribes the accrual basis of accounting, with certain exceptions which are further
     described in this report.

c.   Cost Categories

     The PRH has defined 33 separate cost categories which are used for accounting and
     reporting purposes. These include 29 categories for operating costs, and 4 for capital
     expenditures such as construction and equipment costs. Costs and other contract
     information are reported monthly to the Office of Job Corps on ETA 2110 Report.

d.   Use of Estimates

     In conformity with the accounting practices previously identified, the preparation of Schedule
     of Job Corps Expenses requires management to make estimates and assumptions that effect
     certain reported amounts and disclosures. Accordingly, actual amounts could differ from
     those estimates.




                                                 4
                               HAWAII JOB CORPS CENTER

                   Notes to the Schedule of Job Corps Expenses (Continued)
                              Program Year Ended June 30, 2001


e.   Accrued Leave

     Earned but unpaid leave (vacation and sick leave) is recorded as an expense when paid,
     rather than at the time it is earned by HJCC employees. Therefore, the salaries and wages
     expenses included on the Schedule of Job Corps Expenses do not include an accrual for leave
     earned but not yet taken as of June 30, 2001.

f.   Inventories

     The HJCC maintains inventories of certain operating supplies, including clothing, food,
     medical and dental, fuel, and other supplies. Purchases of inventoried supplies are recorded
     to an inventory account when received, and are charged to expense at the time of issue.
     Inventories are accounted for using average unit pricing.

g.   Property and Equipment

     Property and equipment purchased with Job Corps funds is considered property of the DOL.
     Costs of such property are not capitalized for reporting purposes, but are charged to expense
     in the period when incurred. The property and equipment items reflected on the Schedule of
     Job Corps Expenses include costs classified as: construction and rehabilitation, equipment
     and furniture, and vocational skills training.


NOTE 2. INDIRECT ADMINISTRATIVE EXPENSE

The HJCC operator, MTC, negotiated and obtained provisional indirect cost rates of 6.29 percent
and 6.02 percent for the years ended December 31, 2001, and 2000, respectively. These
provisional rates were awarded by the DOL, the Federal cognizant agency, and are subject to
adjustment in future periods when the final rates are determined. The total indirect costs reflected
on the Schedule of Job Corps expenses for the program year ended June 30, 2001, was $503,327.


NOTE 3. CONTRACTOR’S FEE

The operating contract for the HJCC includes an annual fee (i.e., provision for contractor’s profit)
of $433,000 and $421,000 for the contract years ended January 31, 2002, and 2001, respectively.
The annual fee is divided evenly over each respective 12-month contract period, and recorded as
expense on a monthly basis. The total contractor’s fee for the program year ended June 30, 2001,
as reflected on the Schedule of Job Corps Expenses was $425,962.



                                                 5
                             HAWAII JOB CORPS CENTER
                               Supplemental Information

         Reconciliation of Job Corps Contract Center Financial Report, ETA 2110
                           to the Schedule of Job Corps Expenses

                            Program Year Ended June 30, 2001
                                      Unaudited


                                                                   Total Costs
                                                                   (Unaudited)
Total Contract Year-to-Date Costs Reported per
    ETA 2110 as of January 31, 2001                                $10,237,636

Less: Contract Year-to-Date Costs Reported per
    ETA 2110 as of June 30, 2000                                     (4,224,317)

Reported Costs per ETA 2110, July 2000, to January 2001            $ 6,013,319

Add: Total Contract Year-to-Date Costs Reported
   per ETA 2110 as of June 30, 2001                                  4,700,649

Total Costs Reported per ETA 2110
    July 1, 2000, to June 30, 2001                                 $10,713,968


Total Costs per Schedule of Job Corps Expenses, page 3             $10,713,968




                                              6
Mr. Elliot P. Lewis
Acting Deputy Inspector General for Audit
Office of Inspector General
U.S. Department of Labor
Francis Perkins Building, Room S-5022
200 Constitution Ave. NW
Washington, DC 20210


                    REPORT ON INTERNAL CONTROL STRUCTURE


We have audited the Schedule of Job Corps Expenses of the Hawaii Job Corps Center (HJCC),
for the program year ended June 30, 2001, and have issued our report thereon dated October 25,
2001.

We conducted our audit in accordance with U.S. generally accepted auditing standards and
Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the Schedule of Job Corps Expenses is free of material misstatement.

The management of HJCC is responsible for establishing and maintaining an internal control
structure. In fulfilling this responsibility, estimates and judgments by management are required to
assess the expected benefits and related costs of internal control structure policies and procedures.
The objectives of an internal control structure are to provide management with reasonable, but
not absolute, assurance that assets are safeguarded against loss from unauthorized use or
disposition, and that transactions are executed in accordance with management’s authorization
and recorded properly to permit the preparation of Schedule of Job Corps Expenses in accordance
with the accounting practices prescribed by the U.S. Department of Labor, Office of Job Corps.
Because of inherent limitations in any internal control structure, errors or irregularities may
nevertheless occur and not be detected. Also, projection of any evaluation of the structure to
future periods is subject to the risk that procedures may become inadequate because of changes in
conditions or that the effectiveness of the design and operation of policies and procedures may
deteriorate.

In planning and performing our audit of the Schedule of Job Corps Expenses of HJCC for the
program year ended June 30, 2001, we obtained an understanding of the internal control
structure. With respect to the internal control structure, we obtained an understanding of the
design of relevant policies and procedures and whether they have been placed in operation, and
we assessed control risk in order to determine our auditing procedures for the purpose of
expressing our opinion on the Schedule of Job Corps Expenses and not to provide an opinion on
the internal control structure. Accordingly, we do not express such an opinion.
                                                 7
We noted certain matters involving the internal control structure and its operation that we
consider to be reportable conditions under standards established by the American Institute of
Certified Public Accountants. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the internal controls structure that,
in our judgement, could adversely affect the organization’s ability to record, process, summarize,
and report financial data in a manner that is consistent with the assertions of management in the
Schedule of Job Corps Expenses. Reportable conditions are described in the Findings and
Recommendations section of this report as items 2. through 5.

A material weakness is a condition in which the design or operation of one or more of the internal
control structure elements does not reduce to a relatively low level the risk that errors or
irregularities in amounts that would be material in relation to the Schedule of Job Corps Expenses
being audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions.

Our consideration of the internal control structure would not necessarily disclose all matters in the
internal control structure that might be reportable conditions and, accordingly, would not
necessarily disclose all reportable conditions that are also considered to be material weaknesses as
defined above. However, we believe that none of the reportable conditions described above is a
material weakness.

This report is intended for the information of the U.S. Department of Labor, Office of Inspector
General and Office of Job Corps, and the HJCC’s management.




San Diego, California
October 25, 2001




                                                   8
Mr. Elliot P. Lewis
Acting Deputy Inspector General for Audit
Office of Inspector General
U.S. Department of Labor
Francis Perkins Building, Room S-5022
200 Constitution Ave. NW
Washington, DC 20210


                           REPORT ON COMPLIANCE WITH
                        LAWS, REGULATIONS, AND CONTRACTS


We have audited the Schedule of Job Corps Expenses of the Hawaii Job Corps Center (HJCC) for
the program year ended June 30, 2001, and have issued our report thereon dated October 25,
2001.

We conducted our audit in accordance with U.S. generally accepted auditing standards and
Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the Schedule of Job Corps Expenses is free of material misstatement.

Compliance with laws, regulations, and contracts applicable to HJCC is the responsibility of
HJCC’s management. As part of obtaining reasonable assurance about whether the Schedule of
Job Corps Expenses is free of material misstatement, we performed tests of HJCC’s compliance
with certain provisions of laws, regulations, and contracts. However, the objective of our audit of
the Schedule of Job Corps Expenses was not to provide an opinion on overall compliance with
such provisions. Accordingly, we do not express such an opinion.

The results of our tests disclosed certain instances of noncompliance that are required to be
reported under Government Auditing Standards. These instances of noncompliance are included
in the Findings and Recommendations section of this report as items 1 and 2.

We considered these instances of noncompliance in forming our opinion on whether HJCC’s
Schedule of Job Corps Expenses are presented fairly, in all material respects, in conformity with
the accounting principles described in Note 1. This report does not affect our report dated
October 25, 2001, on that schedule.




                                                 9
This report is intended for the information of the U.S. Department of Labor, Office of Inspector
General and Office of Job Corps, and the HJCC’s management.




San Diego, California
October 25, 2001




                                                10
                           FINDINGS AND RECOMMENDATIONS



1.   Insurance Reserve Balances

     MTC acquires various types of insurance for its Job Corps centers and other corporate
     operations in combined policies. The insurance policy for workers compensation and auto
     liability have self-insured deductibles of up to $100,000 per incident. According to MTC,
     this practice allows them to acquire insurance at a very reasonable price. Annual insurance
     charges to the individual Job Corps centers and other operations include actual charges for
     the policy premiums, as well as an estimated amount for potential losses arising from the self-
     insured deductibles. The projection of potential uninsured losses is provided by the insurance
     company, and according to MTC, is based on their actual loss experience and anticipated
     conditions in accordance with accepted actuarial principles described at 48 CFR 9904.416-
     50. MTC makes an annual addition to the reserve balance equal to the amount calculated by
     the insurance company plus a reserve of 10 percent.

     The estimated portion of insurance charges collected from the various cost centers to cover
     future uninsured losses is retained by MTC as a reserve balance. The majority of the reserve
     balance is related to workers compensation losses. These reserves have accumulated over
     the past several years as follows:

                                                                    Cumulative
                                    Reserves            Actual
                        Year                                         Ending
                                    Collected          Payments
                                                                     Balances
                        Prior                                       $ 883,500
                        1993       $ 1,200,000         $ 406,357     1,677,143
                        1994         1,255,322            618,898    2,313,567
                        1995         1,912,474            846,270    3,379,771
                        1996         2,245,654            752,268    4,873,157
                        1997         1,973,829          1,319,316    5,527,670
                        1998         1,980,733          1,626,693    5,881,710
                        1999         1,859,000          2,013,858    5,726,852
                        2000*        2,568,500          1,815,648    6,479,704
                        Total       $14,995,512        $9,399,308

                                *Data provided through November 2000.

     With the exception of 1999, the data above reflects the reserves collected in a given year for
     projected uninsured losses far exceed the actual amount paid to claimants during that year.
     As a result, the reserve balance has increased by over $5.5 million since 1992. This increase
     is due to claims that occur in a particular year that may not be filed, settled and/or paid for
     many more years. MTC’s methodology is to provide a reserve for the projected loss
                                                  11
associated with actual claims filed and projected to be filed.

An analysis of the reserve balance as of November 2000 reflects $6.48 million which
represents cash collected to date, from Job Corps and other operations, to pay uninsured
losses (known and estimated) for the following years:

                                                    Balance
                                Year of
                                                  Remaining
                                 Loss
                                                  in Reserves
                                  Prior           $ .31 million
                                  1994              .55 million
                                  1995              .37 million
                                  1996              .50 million
                                  1997              .45 million
                                  1998              .66 million
                                  1999             1.07 million
                                  2000             2.57 million
                                 Total            $6.48 million

We conclude that the $6.48 million collected for insurance reserves significantly exceeds the
amount paid out annually since inception of the self insurance program. The most that the
contractor has had to pay out in any one year is $2.0 million, or 31% of the current reserve
balance. The cost accounting standards and cost principles allow contractors to charge
Federal contracts for estimated self-insured losses, such as those charged by MTC.
However, the regulations require that if the liability will not be paid within 1 year after the
loss is incurred, the amount collected for the loss must be computed as the present value of
future payments using a specified rate of interest. This practice ensures that the Federal
government does not lose interest on cash transferred to a contractor for payment of future
amounts, and prevents excessive accumulation of the reserve balance. The regulations state
the following:

    If a loss has been incurred and the amount of the liability to a claimant is fixed
    or reasonably certain, but actual payment of the liability will not take place for
    more than 1 year after the loss is incurred, the amount of the loss to be
    recognized currently shall be the present value of the future payments,
    determined by using a discount rate equal to the interest rate as determined by
    the Secretary of the Treasury . . . in effect at the time the loss is recognized.
    Alternatively, where settlement will consist of a series of payments over an
    indefinite time period, as in workmen’s compensation, the contractor may
    follow a consistent policy of recognizing only the actual amounts paid in the
    period of payment. 48 CFR 9904.416-50(a)(3)(ii)

It is not clear from the data provided by the contractor whether or not the annual addition to
the insurance reserves is based on the present value of projected future losses. In addition,
while the reserve was established for future payment of uninsured losses, the cash collected
                                             12
from Job Corps and other operations has not been designated or set aside for this specific
purpose, and has not been deposited into interest bearing accounts. Rather, the cash was
deposited into MTC’s operating accounts and used by them to meet other obligations. We
noted that the December 31, 2000, financial statements of MTC did not reflect a positive
cash balance.

Finally, it is our understanding that MTC has not obtained approval from the Office of Job
Corps for their self-insurance program, as required by the following regulations:

     When it is anticipated that 50 percent or more of the self-insurance costs to be
     incurred at a segment (see 31.001) of a contractor’s business will be allocable
     to negotiated Government contracts, and the self-insurance costs at the
     segment for the contractor’s fiscal year are expected to be $200,000 or more,
     the contractor shall submit, in writing, information on its proposed self-
     insurance program to the administrative contracting officer and obtain that
     official’s approval of the program. The submission . . . shall include– (1) a
     complete description of the program . . . ,(5) any self-insurance feasibility
     studies or insurance market surveys . . . , (7) a formula for establishing
     reserves, including percentage variations between losses paid and losses
     reserved. . . . 48 CFR 28.308

     Self-insurance includes the deductible portion of purchased insurance. 48 CFR
     9904.416-30(a)(4)

Recommendations

a.   We recommend that MTC prepare and submit a written plan to the Office of Job Corps
     which details the self-insurance policies and practices used in charging insurance costs to
     its government contracts. The plan should entail all of the required components of 48
     CFR 28.308.

b.   We recommend that MTC ensure that future charges for uninsured losses be based on
     the present value of future payments, in accordance with the regulations. We
     recommend that MTC set aside the funds in an interest bearing account, whereby the
     interest will offset the cost of further insurance charges. In addition, MTC should
     ensure that the existing reserves present value of the future payments against the existing
     reserve and refund any excess balance (the proportionate share) to the Federal
     Government.

Auditee’s Response

With respect to recommendation a., the contractor concurred with the recommendation but
provided the following comments:

     In the early 1980’s, after MTC was formed and started business, management at
     that time asked the Office of Job Corps how to handle several administrative
     matters which should have been reviewed and approved by a government
                                            13
    Administrative Contracting Officer (ACO). Unfortunately, we cannot find any
    written correspondence on this matter that far back in time, but at least one
    individual who was involved remembers that MTC was concerned about
    governmental approval of fringe benefits, invoices, etc. At that time, we were told
    that Job Corps did not use ACO’s and that we were to provide a brief description
    of these policies or plans in our Business Management Proposals in response to Job
    Corps Request for Proposals. If we were the selected bidder/contractor and
    awarded the contract, then our policies and plans were approved as described in our
    proposals. We have continued to use that practice ever since that time, and this is
    the first time that this practice has ever been questioned.

With respect to recommendation b., the contractor disagreed with the recommendation,
stating that they believe current insurance reserve policies are in accordance with the
regulations, and that the present value requirements do not apply to their reserves since the
“amount of these claims is neither fixed nor reasonably certain”. They made the following
key points:

    Once a claim has been filed, it may take a number of years to determine the
    appropriate treatment, and then an additional number of years to ultimately make
    payment on said claim.

    Additionally, future payment of claims almost always includes a consideration for
    inflation, higher medical costs, increased attorney fees, and other miscellaneous
    expenses making a value calculated in today’s dollars totally inaccurate for future
    payments.

    However, settlement does consist of a series of payments over an indefinite time
    period and MTC has consistently followed an established policy of having the
    insurance company estimate the yearly reserves based on MTC’s experience,
    relevant industry experience, and anticipated conditions in accordance with
    accepted actuarial principles.

    Based on the above, we believe we are in accordance with the regulation.
    However, we are working with our insurance carrier and broker to determine if
    there is an acceptable way to determine a present value of such claims and will
    make any appropriate changes in our reserving practices.

    MTC’s yearly estimated reserve amount booked is significantly lower that if
    insurance was purchased for the self-insured risk.

Auditor’s Conclusion

With respect to recommendation a., we consider this issue to be resolved subject to MTC’s
submission of their self insurance plan, with all of the required information, to the Office of
Job Corps. As to the contractors comments regarding their proposals, we wish to note that
neither the Hawaii Job Corps Center proposal or the operating contract mentioned MTC’s
self insurance program.
                                             14
With respect to our other recommendations, the contractor first contends that the liability for
insurance claims is not fixed or reasonably certain, stating that it can take years for a claim to
be filed, settled, and paid, and therefore, the present value requirements of the cost
accounting standards do not apply. However, we do not concur that the entire reserve
balance is related to claims for which the amount of the liability is not reasonably certain.
This would assume that none of the claims have been settled (or the amount of the settlement
can not be reasonably estimated) as of December 31, 2000. In addition, according to the
contractor, the related liability was recorded on MTC’s audited financial statements which
were prepared in accordance with generally accepted accounting principles (GAAP). This
being the case, the amount of the liability would have to be reasonably certain in order to be
recorded in accordance with GAAP.

The contractor also claims that the costs paid for insurance is significantly lower that it would
be if insurance was purchased. We were not provided with any information regarding the
basis for this statement, however, feasibility studies or insurance market surveys are part of
the required information when submitting the plan for approval. We encourage MTC to
provide this data when the self insurance plan is submitted to DOL for approval (see
recommendation a.).

As to the contractor’s statement that “settlement does consist of a series of payments over an
indefinite time period”, the cost accounting standards (48 CFR 9904.416-50) provide for
such cases by allowing contractors to recognize only the actual amounts paid in the period of
payment.

We conclude that the contractor’s response does not provide sufficient justification as to why
the reserve of $6.5 million is reasonable or necessary, and does not address the fact that the
entire reserve balance has been spent for other purposes. Our finding is based on the fact that
the $6.5 million in the reserve account far exceeds the annual claims paid by the contractor
since inception of the reserve in 1992. The most that the contractor has ever had to pay out
in one year was $2 million or 30% of the reserve balance. The average reserve balance since
1996 has been over $5 million. In addition, we question the need for reserves of $6.5 million
since the contractor has not in fact reserved the funds for payment of future insurance claims.
Had the funds been truly reserved and held in interest bearing accounts, insurance charges to
government contracts could have been offset by the amount of interest earned on the cash
balances on hand. Using simple interest calculations, the contractor would have earned about
$2 million in interest over the last eight years. Instead, the contractor spent the funds for
other unrelated purposes. We do not believe that these practices are within the intent of the
self-insurance regulations. The present value concepts (required by the regulations) assume
that funds set aside in the current period will earn interest sufficient to fund the full liability
when it becomes due in subsequent years. For this reason, it is not necessary to fund the full
liability in the current period when payment will not be made until years later, or when the
liability will be paid over many years in incremental payments.

For these reasons, we believe that our recommendations are valid and should be addressed
through audit resolution. In this regard, the contractor should provide cost feasibility studies
and actuarial data to support the amount charged to the government for insurance reserves,
and should provide a plan as to how the insurance claims will be paid since the funds have
                                             15
been spent for other purposes.




                                 16
2.   Weak Controls Over Construction and Rehabilitation Projects

     Our audit included tests of the HJCC’s construction and rehabilitation (CRA) projects. In
     general, costs charged to this line item includes expenses incurred for construction of new
     facilities, expansion, or renovation of existing facilities. Center operators are required to
     submit lists of needed CRA projects to the Office of Job Corps, to incur costs only for those
     projects specifically funded and approved, and to track actual costs by approved project.

     The current operating contract had a total CRA budget of $1.15 million of which $729,000
     was incurred during our audit period. Our audit tests of these funds identified the following
     discrepancies:

     •   The center was unable to identify the specific projects approved by the Office of Job
         Corps for a portion of the center’s CRA funding, as shown below.

                                                                                              Date of
                                             Budget          Actual        DOL
               Source of Funding                                                             Contract
                                            Authorized      Incurred       Funds
                                                                                            Modification
          Carryover from prior contract    $131,795        $45,707      PY 94&95        June 1997
          Facility survey PY 98             145,020         26,980      PY 97           July 1998
          PY 99 incremental funding          46,500              0      PY 99           November 1999
          PY 99 incremental funding          33,500              0      PY 99           March 2000
                                           $356,815        $72,687

          Note: The difference between Budget Authorized and Actual Incurred is $284,128.


         The center was unable to provide a list of the projects that had been requested and
         approved for each of these CRA awards. A partial list was provided for the PY 98
         facility survey, but it appeared that pages were missing since the items listed only added
         up to about $27,000. Since these CRA funds were significantly underspent, we
         conclude that many projects originally approved by the Office of Job Corps were never
         completed. The center has requested that the $284,128 funds remaining be redirected to
         cover costs incurred for the Maui dorm project (requests were pending). However, the
         period of availability for the PY 94, 95, and 97 funds has expired. Thus, only $80
         million may be redirected with approval by Job Corps.

     •   The ETA 2110 reflected CRA obligations on June 30, 2001, of $1,243,823, and actual
         costs incurred of $1,015,387. However, the actual amount obligated (i.e., purchase
         orders and/or contracts issued) according to supporting CRA schedules was $1,275,803,
         and the actual costs incurred was $1,047,367. The difference of $31,980 represented
         amounts reported in error as center operations.

     •   The primary project funded with CRA resources was the construction of a new dorm for
         the Maui site. The CRA schedule as of June 30, 2001, reflects that MTC incurred costs
         for this project totaling $707,279, of which over $500,000 was actually vouchered.
         However, the total funds approved as of that date was only about $265,000. In a letter
         to the Job Corps Regional Office dated August 20, 2001, MTC requested redirection of
                                                    17
     $284,000 of unspent funds from other CRA projects as well as new CRA funding of
     $450,000 to cover the costs of the Maui project. Documentation attached to that letter
     indicates that the National Office authorized the Job Corps Regional Office to award
     new CRA funds of $450,000 (from PY 2000 appropriations). However, the center had
     already incurred the costs and vouchered a portion of the funds prior to final approval
     and modification of the operating contract.

•    We tested 10 invoices totaling approximately $688,000 billed against the Maui Dorm
     project. Of these invoices, four were advance payments paid in accordance with the
     terms of the contract or agreement. Of the remaining six invoices, three were processed
     for payment without written notations or other form of evidence that the goods or
     services were received, and one was not supported by a purchase requisition.

Based on these findings, we conclude that the center was not exercising sufficient internal
controls over their CRA projects. This was partially caused by the fact that the center has
experienced turnover in key finance positions, and the current financial services manager was
relatively new to the center. The records available for prior projects and funding were not
readily available and had to be assembled for audit purposes.

Due to the restricted nature and purpose of CRA funding, it is essential that centers exercise
controls which ensure that these Federal resources are used for their intended purposes and
are properly tracked and documented. These projects are initially requested as a means to
provide a safe and appealing environment at the Job Corps center, and an atmosphere
compatible with the goals of Job Corps. If the projects are not tracked or monitored for
completion, the resources may not be used for their intended purposes and renovations
deemed necessary by the Office of Job Corps will never be performed.

Recommendations

a.   We recommend that MTC implement improved controls over the CRA funding provided
     to the HJCC. These controls should ensure:

     (1) adequate accountability over the CRA funds awarded,
     (2) adequate tracking and monitoring for timely completion,
     (3) advance approval of re-directed funds prior to expenditure of such funds for an
         alternative project, and
     (4) improved procedures for documenting receipt of goods or services prior to
         payment.

b.   In addition, we recommend that the HJCC adjust its ETA 2110 report to reflect accurate
     CRA and operations’ costs. As of June 30, 2001, the necessary adjustment was
     $31,980.




                                            18
Auditee’s Response

    The contractor generally concurred with these recommendations, stating certain actions that
    have been put into place to monitor future CRA funding. However, they indicated that
    $145,020 of the funding related to a specific facility survey which was not provided by the
    Regional Office, and that the CRA expenses currently reported for this funding was
    estimated. The actual amount of unspent funds has not yet been identified. They indicated
    that further work will be done to determine the actual amount of CRA incurred against these
    projects and that reports will be adjusted as necessary.

Auditor’s Conclusion

    We agree with the corrective actions described in the contractor’s response, and consider
    these recommendations resolved.




                                               19
3.   Accountability Over Inventories

     Job Corps centers are required to maintain perpetual inventories of consumable supplies for
     the following: clothing, food, educational and vocational materials, medical and dental
     supplies, fuel, and other inventory items. In general, purchases of inventory items are
     vouchered at the time of receipt and expensed as items are issued from inventory for use at
     the center. Centers are required to process all receipts and distributions through the
     inventory accounts in order to maintain a complete accounting of inventory items. Our audit
     of the HJCC’s inventory system and records disclosed the following:

     a.   Standard perpetual inventory systems include reports which provide the detail of
          recorded inventory balances, i.e., a list of each item or class of items held in inventory,
          the number of units on hand, the unit price or value, the extended value, and the total
          inventory value. Our audit identified that the inventory records maintained by MTC did
          not include a report which provided the detail and composition of the center’s ending
          inventory balances. We were told by HJCC staff that the computer system did not
          produce such a report. For example, the ending inventory of food reported on the ETA
          2110 at June 30, 2001, was $19,225. The inventory records available at the center did
          not include a report which provided the detail of items held in inventory which made up
          the $19,225 balance. Manual perpetual reports were maintained for fuel inventories and
          medical and dental supplies; however, these items represent only $16,761 of the $82,741
          ending inventory balance.

     b.   We prepared a schedule of changes in the inventory balances, by ETA 2110 category,
          from June 2000 through June 2001. In 9 of the 12 months evaluated, we noted large
          and unusual fluctuations (defined as more than 20 percent variance from the preceding
          month). For example, the following table shows large and unusual fluctuations for
          medical and dental inventories.

                     More than 20% Variance from Preceding Month


                  ETA 2110
                                   June          July       November     December       January
                  Category

                  Medical &
                    Dental          $55        $11,598        $8,388        – $2         $16,209
                  Inventories




                                                 20
     We also found that the entire month of December looked particularly unusual. The
     following table provides the percentage change in inventories for December.

                   Percentage Change in Inventories - December 2000


                                      Educational      Medical
            Clothing       Food                                        Fuel        Other
                                      & Vocational     & Dental
             – 65%         – 4%          – 100%          – 2%         – 2%          72%

     In addition, inventories were discontinued in December for educational and vocational
     supplies and were not reinstated for the remainder of the year. Due to turnover, the
     center staff was unable to explain why there were such large fluctuations throughout the
     audit period.

Based on these facts, we conclude that the center did not exercise adequate accountability
over center inventories. These inventories are Federal assets, and the lack of accountability
increases the risk that such assets may not be used for their intended purpose.

The PRH requires center operators to safeguard and account for consumable inventories, as
follows:

     All receipts which could be inventoried must be processed through the
     inventory accounts even if immediately issued for use. Adequate and accurate
     accounting for inventory, through perpetual inventory records, is essential for
     proper control of financial resources and reporting of costs and government
     assets. It is important to note that inventory is a government-owned asset and
     must be protected and accurately reported. All receipts and issues in the
     inventory accounts must be recorded. Abnormally high or low usage in a
     particular category may not be evident if records do not reflect total usage.
     PRH Chapter 9, Appendix 901, page 64.

Recommendations

a.   We recommend that complete perpetual inventory records are maintained which provide
     sufficient detail (description, quantity, and value) of the items held in inventory at the
     end of each reporting period. The balances reflected on the report should support the
     inventory balances reported on the ETA 2110.

b.   We also recommend that MTC take greater care in maintaining inventory records and in
     reporting these items on the ETA 2110 to ensure that the reports are accurate,
     complete, and up to date.




                                            21
Auditee’s Response

With respect to recommendation a. the contractor stated the following:

    We do not completely agree with the auditor’s findings and recommendations.
    The computerized inventory system used by Hawaii Job Corps Center does
    generate a detailed listing of recorded inventory balances. The HJCC staff
    discussed with the auditor the process in which inventories are generated.
    During the month-end close process there is a report that provides detail
    including item, number on hand, unit price, extended value and total inventory.
    In the past, the reports were ran to include totals only, not detailed
    information. Effective immediately, this report will be generated to include
    details of inventory to document and support inventory balances on the ETA
    2110 reports.

The contractor concurred with recommendation b., stating that medical and dental
inventories have since been put on the computerized system, and that greater care will be
taken to ensure inventories are accurate, complete and up-to-date.

Auditor’s Response

As indicated in our finding, the inventory reports provided at the center did not include a
detailed perpetual record of ending inventory balances. We requested this report and were
told that it was not produced by the inventory system. Nevertheless, the contractor’s
response indicates that they will begin to generate perpetual inventory reports, and that
additional care will be taken in accounting for center inventories. These recommendations
are considered resolved.




                                           22
4.   Journal Entries Not Reviewed

     Our audit procedures for payroll and non-personnel costs included tests of journal entries
     posted during the program year. This procedure identified that journal entries were not
     consistently approved by someone other than the preparer of the entry prior to being
     recorded in the general ledger. While the MTC standard journal entry form requires the
     name of the individual who prepared the entry as well as the name of the individual who
     approved the entry, the approval line was blank on all of the journal entries selected for
     testing. We scanned the volumes of journal entries (maintained by month), and noted that
     journal entries were very rarely approved by someone other than the preparer.

     We discussed this finding with center staff, and were told that while MTC policy required
     approval of journal entries, the finance manager was relatively new to the center and had not
     yet found the time to initiate this policy.

     The approval function is a well recognized internal control component designed to ensure
     that financial records are free from error or irregularities. It is based on the concept that even
     the most highly skilled employees with the best of intentions will sometimes make mistakes.
     If there are no review and approval procedures in place, there is a much higher risk that
     erroneous transactions will be recorded and will not be detected on a routine or timely basis.

     The Job Corps PRH requires Job Corps contractors to maintain accurate and complete
     financial information, and to provide internal control procedures which encompass approval
     requirements. The PRH, Chapter 9, Financial Management, states the following:

         P1. Purpose . . . To establish and maintain a financial management system that
         provides accurate, complete, and current disclosures by each contractor and
         agency receiving Job Corps funds.

         R4. Internal Control . . . Center operators and OAP contractors shall: a.
         Establish internal controls to provide reasonable assurance that: . . . 2. The
         integrity of the funds provided by the government is protected. 3. Assets are
         properly safeguarded.

         Control procedures shall include: 1. Separation of duties, 2. Approval
         requirements, 3. Documentation requirements.

     Recommendation

     We recommend that the center initiate procedures which require that journal entries be
     reviewed and approved by someone other than the preparer. This process should be
     documented by initialing and dating the appropriate line on the journal entry form.




                                                  23
Auditee’s Response

    We agree with the auditor’s finding and recommendation. All journal entries will be
    reviewed by an accounting position other than the staff entering the journal entry.
    These positions have been trained on what to review to ensure that financial records
    are free from errors or irregularities.

Auditor’s Conclusion

We agree with the planned actions described in the contractor’s response, and consider this
recommendation resolved.




                                           24
5.   Vacation and Sick Leave Balances Exceed Corporate Limits

     Our audit procedures for payroll expense and related liabilities disclosed that the HJCC was
     maintaining annual and sick leave balances in excess of allowable corporate limits.
     According to MTC corporate policy, the maximum amount of unused annual leave which
     employees can carry over to subsequent years ranges from 80 hours to 200 hours, depending
     on the total years of service. The maximum unused sick leave which may be carried over is
     240 hours. However, we noted many instances where the unused leave balances exceeded
     these limits. For example, we noted sick leave balances for employees well in excess of 240
     hours, 1 as high as 1,139 hours. We also noted vacation balances for employees in excess of
     the 200 hour limit.

     According to center personnel, there was some confusion as to whether the corporate policy
     is applicable to the HJCC. Center staff believed that the HJCC was not required to follow
     MTC policy and that the limits on annual and sick leave did not apply to center staff. For this
     reason, accrued leave was never adjusted down to the maximum carryover limits. However,
     the written policy on hand at the HJCC did not indicate an exception to these policies, nor
     was an exception indicated in the centers’ Job Corps proposal or contract.

     MTC policies and procedures state the following:

         The maximum sick leave an employee may have earned and not used at any
         one time is 240 hours (30 days). MTC Policy, Serial No. 310.54, 20 August
         1990, paragraph B.7.b.

         Full-time and part-time employees will earn vacation time in accordance with
         the following eligibility table . . .1st year [of service]-Carryover Maximum 80
         hours per year . . . 20 years -Carryover Maximum 200 hours per year. MTC
         Policy, Serial No. 310.52, 20 July 1989, paragraph B.1.b.

         Site Operations - Excess hours over maximum must be used by no later than
         the cut-off date covered by the second paycheck in January. If all excess hours
         are not used by that date, any excess hours remaining will be lost and the
         employee’s vacation balance adjusted down to his/her maximum annual accrual
         allowed. MTC Policy, Serial No. 310.52, 20 July 1989, paragraph B.8.

     In addition, the cost principles applicable to Job Corps contractors indicate that payment of
     annual and sick leave is an allowable contract cost, if paid in accordance with contractor
     policy. The cost principles state the following:

         The costs of fringe benefits are allowable to the extent that they are reasonable
         and are required by law, employer-employee agreement, or an established
         policy of the contractor. 48 CFR 31.205-6(m)(1).




                                                 25
Accordingly, while the accrued balances noted during our audit are not charged to the
contract until paid to employees, the payment of these balances to employees could result in
unallowable charges to the Job Corps contract.

Recommendation

We recommend that MTC review the leave balances for center staff and determine whether a
portion of these balances should be forfeited by the respective employees. We also
recommend that MTC ensure that the policies applicable to the HJCC are clarified and, if
unique to the HJCC, put into writing and reissued to all center staff.

Auditee’s Response

The contractor concurred with our recommendation as it pertained to sick leave balances.
However, they indicated that vacation balances were adjusted down (each January) to the
maximum carry over balance as required by MTC policy. The contractor indicated that the
maximum carry over amount was not intended to mean that employees leave balances could
not exceed this maximum during the year.

Auditor’s Conclusion

We understand that vacation balances will often exceed the maximum carryover balance
throughout the year, and that only at year end will balances be adjusted to the maximum
carryover. Our finding was based on our observation of balances in excess of the maximum
as well as conversations with center staff, whereby we were informed that balances were not
adjusted because the center was not following MTC corporate policy. We discussed this
finding with corporate staff as well, and were never provided with information to the
contrary. Nevertheless, since the contractor has indicated that both sick leave and vacation
leave will be accounted for in accordance with written policy, this recommendation is
considered resolved.




                                           26
THIS PAGE INTENTIONALLY LEFT BLANK




                27
    APPENDIX




AUDITEE’S RESPONSE




        28
